Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
United States of America
T: +1 202 263 3000
F: +1 202 263 3300
mayerbrown.com

February 25, 2021

Nicole A. Saharsky
Partner
T: +1 202 263 3052
F: +1 202 830 0326
nsaharsky@mayerbrown.com

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Guenther v. Lockheed Martin Corporation, et al.,
No. 20-1012

Dear Mr. Harris:
We represent respondents in the above-captioned case. The petition for a writ
of certiorari was filed on January 22, 2021, and was placed on the Court’s docket on
January 27, 2021. Respondents’ brief in opposition currently is due on February 26,
2021.
Pursuant to Supreme Court Rules 15.3 and 30.4, respondents respectfully request a thirty-one day extension of time, to and including March 29, 2021 (the Monday following Sunday, March 28, 2021), within which to file the brief in opposition.
This extension is necessary because the attorneys with primary responsibility for preparing the brief in opposition have competing deadlines that will make it difficult to
complete the brief by the current due date.
Thank you for your consideration of this request.
Sincerely,

cc: All Counsel of Record

Nicole A. Saharsky

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

